2020IL App( 1st) 182165-U
No. 1-18-2165
Order filed December 3, 2020
Fourth Division
NOTICE: This order was filed under Supreme Court Rule 23 and may not be cited as
precedent by any party except in the limited circumstances allowed under Rule 23(e)(1).
IN THE
APPELLATE COURT OF ILLINOIS
FIRST DISTRICT
THE PEOPLE OF THE STATE OF ILLINOIS,
Plaintiff-Appellee,

)
)■

Appeal from the Circuit
Court of Cook County.,

' )
)

v.

)

No. 1.6CR 10806

)

DARREL WELCH,

)
)
)

Defendant-Appellant.

Honorable
Alfredo Maldonado,
Judge, presiding.

JUSTICE LAMPKIN delivered the judgment of the court.
Justices Hall and Reyes concurred in the judgment.
ORDER

11

Held-. Defendant’s convictions are affirmed over his contention that the trial court abused
its discretion in admitting unduly prejudicial and excessive other-crimes evidence.

12

After a jury trial, defendant Darrel Welch was convicted of three counts of aggravated

criminal sexual assault and one count of aggravated kidnapping and was sentenced to a total of
72 years in prison. On appeal, defendant contends that the trial court abused its discretion in
allowing the State to present evidence that he committed a prior, uncharged sexual assault against

No. 1-18-2165

a different victim. In particular, defendant argues that the probative value of the other-crimes
evidence was substantially outweighed by the danger of unfair prejudice because the prior assault
was too remote in time and factually dissimilar from the charged offenses. He further argues that
the State relied excessively on the other-crimes evidence at trial and thus created an improper
“mini-trial” on that uncharged conduct. For the reasons that follow, we reject defendant’s
contentions and affirm the trial court’s judgment.1

113
114

I. BACKGROUND
As will be discussed more fully below, the evidence at trial established that, in the early

hours of June 3, 2014, as the victim, T.C., was walking home, defendant approached her from
behind, grabbed her by the neck, and dragged her into an alley, where he ripped off her clothing,
threatened to kill her, and repeatedly sexually assaulted her. At the time, defendant was 54 years
old and T.C. was 19 years old.

15

,

Before trial, the State filed a motion to admit evidence that defendant committed a similar

sexual assault against a different victim, T.B., in August 1999. In the motion, the State represented
that, during that incident, defendant approached T.B., grabbed her by the arm, and forced her into
an alley, threatening to hurt her if she screamed. before tearing off her clothing and sexually
assaulting her. Finding the alleged assaults of T.B. and T.C. sufficiently similar, the trial court
allowed the State to introduce the other-crimes evidence for purposes of showing defendant’s
intent and propensity to commit the charged offenses against T.C.

In adherence with the requirements of Illinois Supreme Court Rule 352(a) (eff. July 1,2018), this
appeal has been resolved without oral argument upon the entry of a separate written order.

-2 -

No. 1-18-2165

116

At trial, T.C. recounted that, as she was walking home from a friend’s house on the evening

of June 2, 2014, she ran into another friend named Mike Noel. (Noel is defendant’s nephew.) T.C.
and Noel went to Noel’s grandmother’s house, where they sat on the front porch, talking and
smoking marijuana. Eventually, T.C. and Noel went to the garage behind Noel’s grandmother’s
house and had sex in a car parked in the garage. T.C. testified that Noel did not put his hands on
her neck while they were having sex . When they finished, T.C. and Noel went back to the porch.

II7

Around 1 a.m., Noel went inside the house while T.C. remained on the porch. At some

point, defendant and a woman approached the porch and used a key to enter the house. Defendant
later came back out to the porch and smiled at T.C. but did not say anything. T.C. then got up and
began to walk borne.

P

As T.C. walked toward an alley, defendant grabbed her and told her not to scream. With

his hands around T.C.’s neck and mouth, defendant dragged T.C. down the alley, threatening to
kill her if she was not quiet. When defendant got T.C. near the back of a garage, he pulled off
T.C.’s

clothes and pushed her to the ground. He then forced his penis into T.C.’s mouth causing

her to vomit. He proceeded to force his penis into T.C.’s vagina and anus. T.C. struggled to escape,
but defendant wrapped his legs around hers and trapped her under the weight of his body. When
defendant finally let T.C. go, he told her “what happens in Vegas, stays in Vegas,” and that he
would kill her if she told anyone what he had done.

H9

T.C. got up and ran home, leaving her bra and underwear behind. When she arrived home

around 5 a.m., she told her mother that she had been raped. T.C.’s mother testified that T.C. was
hysterical and crying. Her hair and clothing were disheveled, as though she had been in a struggle.

-3 -

'

No. 1-18-2165
After speaking with her mother, T.C. called 9-1-1. Two police officers and an ambulance arrived
a short time later.
110

The ambulance transported T.C. to a hospital, where she was examined by a physician and

nurse and a sexual assault kit was collected. The examination revealed bruising on both sides of
T.C.’s neck, an abrasion on the palm of her right hand, and blood with yellow discharge inside her
vaginal wall. T.C. reported pelvic and vaginal pain. The doctor and nurse collected oral, vaginal,
and anal swabs from T.C., as well as swabs of her neck, breasts, and abdomen. The

nurse noted

the presence of dirt or debris in T.C.’s pubic hair.
Ull

Meanwhile, the police officers who responded to T.C.’s 9-1-1.call searched the alley where

T.C. reported that the assault occurred. The officers found

bra, underwear, and pair of socks on

the cement in front of a garage door between two garbage cans. The bra matched the description
of T.C.’s bra. When shown a photograph of the bra at trial, T.C. identified it as hers. When the
officers located the bra, they observed dirt in one of the cups.
H 12

Approximately two years later, T.C.’s sexual assault kit was tested. A forensic scientist

identified a male DNA profile from the abdomen, breast, and neck swabs taken from T.C.
A CODIS (Combined DNA Index System) search revealed that the male DNA profile matched
defendant’s DNA. T.C. subsequently identified defendant in a photo array and defendant was
arrested. The DNA match was then confirmed through testing of a buccal swab collected from
defendant after his arrest. The DNA profile identified from defendant ’s buccal swab was also
found to match DNA identified on T.C.’s oral and anal swabs.
113

The State called two witnesses to testify about defendant's earlier sexual assault of T.B.

Before each witness took the stand-and again at the close of the case-the trial court instructed

-4-

No. 1-18-2165
the jury that the other-crimes evidence was being admitted solely on the issues of defendant’s
intent and propensity to commit aggravated criminal sexual assault and could be

considered by it

only for those limited purposes.
U14

T.B. testified that she had been drinking and getting high when,

around 3:15 a.m. on

August 26, 1999, defendant approached her on the street. Defendant told her that he had crack
cocaine and asked her if she had something to smoke it with and if she knew
could go to get high. T.B. responded that she had

of a place where they

a crack pipe and directed defendant to a nearby

park. The park was located along CTA tracks, near a cemetery, and was “pretty isolated.” When
they arrived at the park, defendant asked to see T.B.’s crack pipe. She handed it to him, and he
looked at it and handed it back. Defendant reached into his pocket likehe was

going to retrieve his
drags, but he instead punched T.B. in the eye, dazing her and causing blood to ran down her face.
Defendant then told T.B. to get undressed and got on top of her on the ground, forctng his penis
into her vagina. He told T.B. that he was going to "fuck [her] all night.” T.B. struggled to get away
and was eventually able to escape by hitting defendant with the

crack pipe. Wearing only her shirt,

she ran across the park toward an alley, where she flagged down a police
11 15

car.

The State also called one of the police officers that T.B. flagged down. The officer testified

that he and his partner were on patrol when they observed T.B. walking toward them quickly. T.B.
was naked from the waist down and her breasts were
exposed through her tom shirt. She was
bleeding from a cut over her right eye. The officer got out of his vehicle and spoke with T.B
., who
reported that she had been sexually assaulted. The officer went to the location where T.B. said the
assault occurred and observed defendant behind some bushes, getting dressed. The officer detained
defendant and brought him to the police vehicle, where T.B. identified him

-5-

as her attacker. The

No. 1-18-2165

officers then transported defendant to the police station for questioning. Defendant admitted to
having sex with T.B. but claimed it was consensual,

He was eventually released and no charges

were filed.
H 16

After the State rested, defendant took the stand. He testified that, around 1

a.m. on June 3,

2014, he was walking home with a female friend. As he approached his house, which he
with his mother, sister, and two nephews, he saw T.C. sitting on the front porch
was waiting for Noel. Defendant testified that, after his friend left, he and T.C.

shared

. T.C. told him she

stayed on the porch

and talked for about 30 minutes. He then decided to go inside, and T.C. asked if she could wait for
Noel inside. According to defendant, he and T.C. then went to his bedroom in the basement and
sat on the bed together and talked. Defendant testified that he put his

arm around T.C. and kissed

her, and that T.C. “cozied” up to him in response. According to defendant, he and T.C
undressed and engaged in consensual sexual activity, including oral, vaginal, and anal
about an hour. They remained in defendant’s bedroom until about 3:30

. then

sex, for

or 4 a.m., when T.C.

decided to leave. According to defendant, T.C. grabbedher belongings and the two went upstairs.
T.C. put on her pants and shirt, but did hot put on her bra, which she instead carried with her as
she left. Defendant then went back downstairs and went to sleep.
1117

Defendant also addressed the earlier incident with

T.B. He testified that, when he

encountered T.B., she asked him if he used drugs. Defendant told her that he did and asked her if
she had a pipe. According to defendant, T.B. told him that she knew a

place where they could go

to get high. They then walked to a secluded area and proceeded to get high for nearly two hours,
During that time, defendant testified, they engaged in

consensual sexual activity. The activity

ceased when defendant decided he wanted to leave. He grabbed T.B.’s crack pipe and tried to

-6-

vi

No. 1-18-2165

make off with it, but T.B. resisted and a scuffled ensued. As they tussled over the pipe, defendant
pushed T.B. into a wall, causing her to hit her head. T.B, then flagged down the police
officers and
defendant overheard her telling them she had been sexually assaulted. When
an officer questioned
defendant about wha, happened, he told the office, tha, he and T.B. had been getting high and had
consensual sex. The officers handcuffed defendant and took him to the police station, but they
eventually let him go without charges.

IMS

On cross-examination, the State first questioned defendant about his

version of the incident

with T.B. going through the details of defendant’s account of his initial

encounter with T.B., their
drug use and allegedly consensual sex, the subsequent scuffle over T.B. ’s era
ck pipe during which
defendant allegedly pushed T.B. into a wall and caused the cut above Her right eye, and defendant's
ensuing interaction with the police. After questioning spanning approximately ten pages of the
trial transcript, the trial court called a sidebar conference. The court explained that the State
entitled to cross-examine defendant about the descriptiion

was

of his interaction with T.B. that he g ave

on direct examination, but the court
reminded the prosecutor that the focus of the trial should
remain on the charged incident with T.C. The c
ourt admonished the'prosecutor to avoid turning
the “other crime stuff’ into a “[final within a [firial.” After the sidebar concluded,

the State asked
defendant two more questions about his encounter with T.B. and then turned its attention to the .
charged offenses. The latter portion of the State’s

cross-examination, addressing defendant’s

version of his encounter with T.C., spans approximately 20 pages of the transcript.
11 19

Finally, defendant called Noel as a witness. Noel testified that, while having sex with T.C.

in the garage behind his grandmother's house, he put his hands around T.C.'s neck
in a “rough”
manner. He conceded, however, that he did not use
enough force to hurt T.C. and that she looked

-7-

No. 1-18-2165
okay after their encounter. In addition, following Noel’s testimony, the parties stipulated that, in
an interview with an investigator from the Statels attorney’s-office, Noel-denied that he and T.C.
had “rough” or “violent” sex and described it as “more like caressing.”
11 20

In Cl0S'ng argument> the state stressed that the case boiled down to a credibility contest

between defendant and T.C. and argued that the jury should believe T.C

.’s testimony because it

was corroborated by the physical evidence, including the injuries to T.C.’s neck and hand
in her pubic hair and bra, and the DNA evidence. The State also urged the jury

, the dirt

to credit T.B.’s

testimony about defendant’s prior sexual assault of her. After reminding the jury that T.B.’s
testimony could only be considered on the questions of defendant’s intent and propensity, the State

.

noted various similarities between the assaults that T.B. and T.C. described, including that both •
occurred late at night, in outdoor, secluded areas, that defendant and both victims v
- were strangers,
and that defendant used physical violence in both instances. In light of the similarities, the State
argued, T.B.’s testimony about defendant’s prior sexual assault provided added support for T.C.’s
account of defendant’s assault against her.
H 21

The jury returned guilty verdicts on all counts. Defendant filed a motion for

new trial,

arguing (among other things) that the trial court etred in allowing the State to introduce othercrimes evidence. The court denied the motion. The court sentenced defendant to

consecutive terms

of 18 years in prison on each conviction and denied defendant’s motion to reconsider the sentence.
Defendant then filed a timely notice of appeal.
122
123

II. ANALYSIS
On appeal, defendant contends that the trial court erred in allowing the State to introduce

evidence that he committed a prior, uncharged sexual assault against T.B. to demonstrate his intent

-8 -

,

No. 1-18-2165

and propensity to commit the charged sexual assaults against T.C. In particular, he argues that the
probative value of the evidence was substantially outweighed by the danger of unfair prejudice
and that the State’s allegedly excessive focus on the other-crimes evidence created an improper
“mini-trial” on the uncharged conduct that denied him

a fair trial. We review the trial court’s

decision to admit other-crimes evidence for an abuse of discretion. People v. Chapman, 2012 IL
111896,1119.
124

In general, evidence of a defendant’s prior criminal acts is inadmissible to establish his

propensity to commit a charged offense, although such evidence

may be admitted for other

purposes, including to prove the defendant’s motive, intent, opportunity, knowledge, identity,
modus operandi, or absence of mistake. People v. Donoho, 204 111. 2d 159, 170 (2003); III. R.
Evid. 404(b) (eff. Jan. 1, 2011). Section 115-7.3 of the Code of Criminal Procedure (725

ILCS

5/115—7.3 (West 2014)), however, creates an exception to that general rule in cases involving
certain sex offenses. Under that provision, when a defendant is charged with
^ offense, including (as here) aggravated criminal sexual

an enumerated sex

assault, evidence of the defendant’s

commission of another such offense may be admitted for its bearing

on any matter to which' it is

relevant, including to prove the defendant’s propensity to commit the charged offense. Donoho,
... 204 Ill. 2d at 176; 725 ILCS 5/115-7.3(b) (West 2014).
H 25

As with any relevant evidence, otherwise admissible other-crimes

evidence “may be

excluded if its probative value is substantially outweighed by the danger of unfair prejudice,
confusion of the issues or misleading the jury, or by considerations of undue delay, waste of time,
or needless presentation of cumulative evidence.” Ill. R. Evid.
v. Dabbs, 239 Ill. 2d 277, 284 (2010) (“Even if offered for

-9-

403 (eff, Jan. 1, 2011); see People

a permissible purpose, [other-crimes]

No. 1-18-2165

evidence will not be admitted if its prejudicial effect substantially outweighs its probative value.").
When weighing the probative value of other-crimes evidence

against the danger that it will cause

unfair prejudice, section 115-7.3 directs a trial court to consider three factors: (1) the proximity in
time between the other offense and the charged offense, (2) the degree of factual similarity b
the other offense and the charged offense, and (3) any other relevant facts

etween

and circumstances.

725 ILCS 5/115—7.3(c) (West 2014).
K 26

Defendant argues that his alleged sexual assault of T.B.

was too remote in time and not

sufficiently factually similar to the charged sexual assault of T.C. to be admissible as other-crimes
evidence. As for proximity in time, T.B. testified that defendant sexually assaulted her in Aug
.1599, around 15 years before defendant committed the charged sexual assault

ust

against TC. Our-

supreme court has declined to adopt any “bright-line rule” governing when a prior offense is too
old to be admitted as other-crimes evidence. Donoho, 204 Ill. 2d at 183-84. Instead the

court has

explained that a prior crime’s remoteness in time from the charged offense is simply one “factor
;to cwsider” when assessing the probative value of the other-crimes evidence. Id
• at 184. Indeed,
in Donoho, the court held that “while the passage of 12 to 15 years since the prior offense may
lessen its probative value, standing alone ills insufficient” to render evidence of the prior offense
inadmissible.7g/. There, the court concluded that, despite the 12 to 15 years that elapsed between
the other offense and the charged offense, the “substantial

factual similarities” between the

offenses were “sufficient to justify admission of the other-crimes evidence.” Id. at 186.
U 27

We thus turn to consideration of the second factor specified in section 115-7.3, the degree

of factual similarity between the other offense and the charged offense. Defendant contends that
his alleged prior sexual assault of T.B. lacks sufficient factual similarities to the charged sexual

- 10-

No. 1-18-2165

assault of T.C. to justify admitting evidence of the former offense
disagree. Our review of the record reveals numerous

as other-crimes evidence, We

and significant factual similarities between

the two offenses. Both assaults occurred in the early morning hours
testified that defendant attacked her around 3:15 in

and in secluded areas. T.B.

the morning, after the two went to an isolated

park to use drugs. T.C. simiiarly testified that defendant attaeked her in an alley shortly after
1 a.m. There was also evidence that neither T.B. nor T.C . was
acquainted with defendant prior to
their respective assaults. In addition, defendant used physical violence to commit both
sexual
assaults. He sucker punched T.B. in the eye, dazing her and causing blood to tun down her face.
And he grabbed T.C. by the neck and dragged her with such force that it caused both sides of her
neck to bruise. Finally, both offenses involved acts
of forcible sexual penetration. T.B. testified
that defendant forced his penis iinto her vagina, while T.C. testified that defendant forcibly
penetrated her mouth, vagina, and anus with his penis.
11 28

Defendant discounts the similarities between the sexual a^aults

focuses instead..on the presence of certain dissimilarities
defendant apmpached her from behind, dragged her into

on T.B. and T.C. and

. He notes that, while T.C. testified that
an alley, and threatened to kill her, T.B,

did not describe similar actions by defendant. Instead , T.B.
testified that defendant approached her
on the street and asked if she knew where they could go to get high. And though T.B. testified that
defendant punched her after she showed him.her crack pipe, she did not recount any threats from
defendant or testify that he grabbed her from behind and dragged her to the site

of the assault. But

“[t]he existence of some differences between the prior offense and the current charge does
not
defeat admissibility because no two independent crimes are

identical.”Donoho, 204 Ill. 2d at 185.

Instead, where other-crimes evidence is offered, as here, for a

-11 -

purpose other than establishing

No. 1-18-2165

modus operandi, "mere general areas of similarity will suffice to support admissibility.” (Internal
quotation marks omitted.) Id at 184. Despite certain differences in the methods defendant

used to

carry out the respective assaults, we think the substantial general areas of similarity described
above are sufficient to support the trial court’s decision to admit the other

-crimes evidence for

purposes of establishing defendant’s intent and propensity, notwithstanding a 15-year gap between
the offenses.
129

Relatedly, defendant complains that, in its pretrial motion to admit the other-crimes

evidence, the State described defendant’s assault of T.B

• in a manner that differed in several

respects from what T.B. ultimately described at trial and gave the impression that the
T.B. was more akinrto the charged assault of T.G.

assault of

than it actually was. In {Particular, the State

proffered that defendant grabbed T.B. by the ami, forced her

into an alley, and threatened to hurt

her if she screamed. At trial, however, T.B. gave a
different account of the events leading up to
defendant’s sexual assault of her, which involved defendant asking her ifshbknew of a place they
could go to use drugs and then sucker punching her after they arrived at that location.
1 30

But defendantsffid not ask the trial;court to

reconsider its pretrial ruling on the admissibility

of the other-crimes evidence after T.B. testified. Nor did defendant raise the discrepancy between
the State’s pretrial proffer and T.B.’s trial testimony in his motion for

a new trial. Defendant thus-

forfeited any argument that the discrepancy alone warrants reversal of the trial

court’s evidentiary

ruling. See People v. Thompson, 238 III. 2d 598, 611 (2010) (“To preserve a claim for review, a
defendant must both object at trial and include the alleged

error in a written posttrial motion.”),

Forfeiture aside, because (as explained above) the details of the

sexual assault to which T.B.

testified at trial were sufficiently similar to the details of the charged sexual assaults against T.C.

- 12-

No. 1-18-2165

to support admission of the other-crimes evidence, defendant has not shown that he

was prejudiced

by the inaccuracies in the State’s pretrial proffer.'
H 31

Finally, defendant contends that the State relied excessively on the other-crimes evidence,

creating an improper “mini-trial” or “trial within a trial”

on that evidence. “Even when relevant

and probative, other-crimes evidence must not become a focal point of the trial.” (Internal
quotation marks omitted.) People v. Smith, 406 111. App. 3d 747, 755 (2010). When “admitting
evidence of other crimes to show propensity,” therefore, “a trial court should not permit
trial of the other, uncharged offense[s], but should allow only that which is

a ‘mini­

necessary to illuminate

the issue for which the other crime was introduced.” (Internal quotation marks omitted.) Id Having
•” reVieWed the record’ »e cannot say that the State’s reliance on the other-crimes evidence
.

was

excessive or denied defendant ajair trial.
132

To begin, the State presented evidence of a single, prior sexual assault. And it presented

.that evidence through the testimony of just two witnesses—T.B. and the police officer to whom
she reported the assault. Before each witness testified, the trial

court admonished the jury that

testimony about defendant’s* assiault of T.B. could be considered only for the limited purposes of
assessing defendant’s intent and propensity. T.B.'s testimony accounts for just

over seven pages

of the trial transcript. After answering a few introductory questions, T.B.’s testimony
to a description of her initial encounter and interaction with defendant

was limited

his subsequent sexual

assault of her, and her contemporaneous report to the police. The officer’s testimony
additional 12 and a half pages (although about two and a half of those pages

spans an

are devoted to a

sidebar conference) and focused on the officer’s observations of and interactions with both T.B,
and defendant in the aftermath of the assault. Neither T.B. nor
the officer offered repetitive or

-13 -

No. 1-18-2165

unnecessary details of the assault that were unrelated to the issues for which the other-crimes
evidence was imroduced, namely, defendant's intern and propensity to commit the charged

sexual

assaults against T.C.
H 33

Nor did the testimony offered by the other-crimes witnesses become

a focal point of the

trial or amount to an improper trial within a trial. As noted, the testimony of T.B. and the officer
takes up less than twenty pages of the trial transcript. By contrast, T.C.'s testimony spans about
55 pages of transcript (excluding sidebars and other unrelated

matters). And the State presented

six other witnesses—and offered numerous stipulations—that also focused exclusively on the
charged assaults against T.C. This was thus not a case in which an excessive volume of othercrimes evidence overwhelmed the, evidence related

to the charged offenses. Cf. People v.

Cardamom, 381 111. App. 3d 462, 491 (2008)'(finding that dinger of unfair prejudi
outweighed probative value of other-crimes evidence where “the

ce substantially

vast majority of the State’s case

consisted of other-crimes evidence.”).
U 34.. Nonetheless defendant contends that the State improperly shifted the focus of the trial to
the other-crimes evidence by over-emphasizing the prior assaulfbf T.B. in its cross-examination
of defendant and closing argument. We again disagree. The State’s

entire cross-examination of

defendant covers a pproximately 30 pages of the trial transcript. Yet only ten of those pages are
devoted to the State s questioning of defendant about the details of his assault against T.B. On
direct examination, defendant denied T.B . s allegations and offered an alternative version of their
encounter, in which he claimed (as he did with respect to T.C.

as well) that their sexual activity

was consensual. As the trial court properly noted, the State was entitled to cross-examine defendant

- 14-

No. 1-18-2165
on those points and we cannot say, when, viewed in context of the full record, that its questioning
crossed the line from appropriate to excessive.
135

The State was likewise entitled to discuss defendant’s alleged assault of T.B

. in closing

argument, tn doing so, the State reminded the jury that the other-crimes evidence could be
considered only on the questions of defendant's intent and propensity and then appropriately
addressed the similarities between the two assaults, which were
relevant to establishing both of
the permissible points for which the evidence was admitted. Considering the relatively limited
nature of the other-crimes testimony presented in the State’s case-in-chief, and the limiting
instructions concerning that testimony that the trial court delivered both during trial

and at the
close of the case, we cannot say that the S-tatePreferences to the other-crimes evidence when
cross-examining defendant or in closing argument created an improper mini-trial on the uncharged
conduct or otherwise raised a risk of unfair prejudice to defendant that substantially outweighed
the probative value of the other-crimes evidence. For all these reasons,

we conclude that the trial

court did ijot abuse its discretion in allowing-the State to present the other-crimes evidence.
136

Ilf. CONCLUSION

137 'For the foregoing reasons, we affirm the circuit court’s judgment.
138

Affirmed; "

- 15 -

•Cur-

Additional material
from this filing is
available in the
Clerk's Office.

a,

- i

SUPREME COURT OF ILLINOIS
SUPREME COURT BUILDING
200 East Capitol Avenue
SPRINGFIELD, ILLINOIS 62701-1721
(217) 782-2035
FIRST DISTRICT OFFICE
160 North LaSalle Street, 20th Floor
Chicago, IL 60601-3103
(312)793-1332
TDD: (312)793-6185

Darrel Welch
Reg. No. N30514
Menard Correctional Center
P.O.Box 1000
Menard IL 62259

March 24, 2021
In re:

People State of Illinois, respondent, v. Darrel Welch, petitioner.
Leave to appeal, Appellate Court, First District.
126913

The Supreme Court today DENIED the Petition for Leave to Appeal in the above
entitled cause.
The mandate of this Court will issue to the Appellate Court on 04/28/2021.

Very truly yours,

Cierk of the Supreme Court

7

rt0(0(,0(

'*> fsJ

*

'

